OIG Audit Report GR-30-00-005

Compliance with Standards Governing Combined DNA Index System Activities
Commonwealth of Virginia
Division of Forensic Science Central Laboratory
Richmond, Virginia

Audit Report GR-30-00-005


September 2000
Office of the Inspector General


Executive Summary

The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Commonwealth of Virginia Division of Forensic Science Central Laboratory (Laboratory). CODIS is a national information repository maintained by the FBI that permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law enforcement agencies. The Laboratory received four grants totaling $978,439, funded through the Department of Justice.
Our audit generally covered the period from the implementation of CODIS at the Laboratory in January 1991 through April 2000. The objectives of the audit were to determine if the Laboratory:

complied with the FBI's Quality Assurance Standards (QAS) and National DNA Index System (NDIS) requirements; and
uploaded DNA profiles (a computerized record containing DNA characteristics used for identification) to NDIS that were complete, accurate, and in accordance with the QAS, NDIS requirements, and state legislation.

We found that the Laboratory uploaded complete and accurate DNA profiles to NDIS. Although the Laboratory generally complied with the QAS and NDIS requirements, we noted the following instances of noncompliance.

The Laboratory did not have the documentation required by the QAS to verify calibration for two pieces of equipment.
The Laboratory uses a document titled Emergency Procedures and Evacuation Plan (Plan) to meet the Environmental Health and Safety Program QAS requirement. The Laboratory's most recent approved Plan was dated February 1992; however, the Plan pertains to a previous facility that the Laboratory no longer occupies. The Laboratory has a Plan for the current facility in draft, which has not been finalized and approved.
The Laboratory uploaded three DNA profiles to NDIS that it should not have. Two of these profiles matched the DNA profiles of crime victims, and one DNA profile matched a suspect whom the Laboratory knew was cleared of the charge. The NDIS requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to a victim or to known individuals other than the suspected perpetrator(s).

The audit results are discussed in greater detail in the Findings and Recommendations section of the report. Appendix I discusses our audit scope and methodology. Appendix II contains background infonnation; and Appendix III provides the audit criteria. Appendix IV covers the history and status of DNA testing and CODIS use at the Laboratory.